              UNITED STATES GOVERNMENT
             National Labor Relations Board
             Office of Inspector General

Memorandum


June 10, 2005

To:      Jacqueline Young
         Freedom of Information Officer

From:    Jane E. Altenhofen
         Inspector General

Subject: Inspection Report No. OIG-INS-36-05-02: FOIA Processing

      We initiated this inspection in March 2005 to determine whether
the National Labor Relations Board (NLRB or Agency) filled requests for
information made under the Freedom of Information Act (FOIA) in a
timely manner.

       The Agency responded to FOIA requests in a timely manner. In
Fiscal Year (FY) 2004, the Agency processed 5,295 requests in a median
of 9.5 days, substantially under the 20-day period allowed by
regulations. A majority of FOIA requests were granted in full in most of
the offices reviewed. Generally, the number of FOIA requests received by
the Agency decreased over the past 6 years from a high of 6,268 requests
in FY 1998 to a low of 5,193 requests in FY 2004.

         In instances when the Agency did not respond to a FOIA request
within 20 days, some offices reviewed did not usually provide the
required written notice to the requester. FOIA logs or databases for three
Regional Offices and the Office of Appeals had data elements with
exception rates in excess of 10 percent, a rate that we consider
significant. Two offices did not compute working days in accordance
with FOIA guidelines. These inconsistencies made the Agency appear to
respond to requests in a less timely manner than it actually did.


SCOPE

      We reviewed FOIA as amended by the Electronic Freedom of
Information Act Amendments of 1996 and the U.S. Department of
Justice's (DOJ) Office of Information and Privacy's Freedom of
Information Act Guide and Privacy Act Overview (DOJ FOIA Guide) to
determine the laws affecting FOIA requests and appeals. We reviewed
the NLRB Rules and Regulations, NLRB’s FOIA Manual, and all relevant
Operations-Management and General Counsel Memorandums to identify
Agency policies and procedures.

      We interviewed NLRB personnel to determine the methodology for
processing FOIA requests and compiling related reports. We reviewed
FOIA reports prepared by the Office of Executive Secretary; Division of
Advice, Research and Policy Planning Branch, Legal Research Section
(Legal Research); Office of Appeals; and Regional and Sub-Regional
Offices that were used to compile the FY 2004 FOIA Annual Report.

      We selected a statistical sample for Legal Research and judgmental
samples of the other offices reviewed and tested the accuracy of the
manual and electronic databases used to compile reports prepared by
each office. We also reviewed the processing timeliness of these items.
We then determined whether offices were calculating the number of days
to process transactions correctly and calculated both the median and
average days to process requests or appeals for the entire year.

      We conducted this review from March through June 2005. We
conducted this inspection at NLRB Headquarters and Regions as follows:
Region 8 – Cleveland; Region 18 - Minneapolis; Region 20 - San
Francisco; and Region 22 - Newark. This review was done in accordance
with the Quality Standards for Inspections issued by the President's
Council on Integrity and Efficiency.


BACKGROUND

      Enacted in 1966 and taking effect on July 4, 1967, FOIA firmly
established an effective statutory right of public access to Executive
Branch information in the Federal government. FOIA generally provides
that any person has a right, enforceable in court, to obtain access to
Federal agency records, except to the extent that such records (or
portions of them) are protected from public disclosure by one of nine
exemptions or by one of three special law enforcement exclusions.

       FOIA requests are made to the office that possesses the records.
Requests are made to the Executive Secretary for records in the custody
of the Board or the Inspector General, to the Freedom of Information
Officer for records of the General Counsel in Washington, DC, or to the
applicable Regional or Sub-Regional Office. The Assistant General
Counsel, Research and Policy Planning Branch, Division of Advice is the
Agency's Freedom of Information Officer. NLRB offices that process FOIA


                                   2
requests submit reports detailing their FOIA activity for the fiscal year.
Legal Research compiles these results and prepares the Agency’s annual
report that is submitted to DOJ.


PENDING LEGISLATION

        Two pieces of legislation related to FOIA are pending. The Open
Government Act of 2005 amends FOIA in an effort to expand the
accessibility and openness of Government. The legislation provides that
the commencement of the 20-day time limit that the agencies must
process a request for records begins on the day in which the request is
first received. It also creates penalties for not meeting that deadline. The
legislation would also require agencies to establish: (1) a system to assign
tracking numbers for requests for information; and (2) telephone or
Internet service that provides the status of the request. The Faster FOIA
Act would create a commission of congressional and executive branch
appointees to study ways of reducing delays in processing requests.


RESULTS

Timeliness

       According to NLRB Regulations, once an agency properly receives a
FOIA request, the Agency has 20 working days to make a determination
to grant or deny the request and to notify the requester of any charges.
The DOJ’s Guidelines for Agency Preparation and Submission of Annual
FOIA Reports requires that the median number of days to process
different types of requests be included in the annual report. The Agency
may also report the average time if it believes that it is a better measure
of performance.

      Overall, the NLRB responds to FOIA requests and appeals in a
timely manner. Results of processing timeliness for the offices tested are
shown below. In all but one request shown in the table below, the
applicable information was provided in the initial response. For this
request, Region 22 responded, but was unable to forward the information
at that time. The documents requested had to be retrieved from a
Federal Records Center and were provided in 34 working days.




                                     3
                         Processing Timeliness

                  Requests      Within              Median     Average
                  Processed    20 Days       %       Days       Days
  Board               81          77         95       3           6
  GC - Hdqtrs        762         679         89       12         13
  Region 8           141         139         99       3           5
  Region 18          116         116        100       6           6
  Region 20          104          82         79       9          14
  Region 22          117         107         91       2           6

      In total, 121 requests took more than 20 days to process, and most
of these were requests for information from the General Counsel at
Headquarters and Region 20.

   •   Of the 83 requests that took more than 20 days to process by Legal
       Research, 18 took longer than 30 days and two of these took longer
       than 40 days to process. Another two requests took 50 and 52
       days to process. Legal Research stated that when extra time is
       taken it is usually because they need to coordinate with other
       offices to obtain the requested information. Legal Research stated
       that in each instance, the requester was contacted and a note was
       made in the file.

   •   Of the 22 requests that took more than 20 days to process in
       Region 20, 11 took more than 30 days and 5 of these took longer
       than 40 days. Three of these requests took 85, 106, and 125 days
       to process. The Region could not explain what contributed to long
       processing times in these particular instances.

Appeals

       NLRB Rules and Regulations state that an appeal of a FOIA
request denial shall be decided within 20 days (excepting Saturdays,
Sundays, and legal public holidays) after receipt of such an appeal by the
Office of Appeals or the Chairman of the Board.

       The Office of Appeals processed 42 of 47 (89 percent) appeals in 20
working days or less. Of the cases that were not processed in 20 working
days or less, three were processed in less than 30 days, one request was
processed in 31 days, and another took 63 days. The longest case
appealed NLRB's decision to charge a fee and to withhold in part the
NLRB 10(j) Manual and required substantial coordination with multiple
offices. The Agency decided to place a redacted 10(j) Manual in the



                                    4
NLRB's electronic reading room. No appeals were made to the
Chairman’s Office.

Extension of Time

       FOIA provides that in unusual circumstances an agency can
extend the 20-day time limit for processing a request or appeal if it
notifies the requester in writing why the extension is needed and when a
determination will be made. NLRB Regulations state that the time limits
may be extended by written notice to the person requesting the record
setting forth the reasons for such extension and the date on which a
determination is expected to be dispatched.

     The table below shows requests and appeals that took longer than
20 days to process and whether a written notice was provided.

                  Written Notice for Requests Over 20 Days

                  Sample      Over 20 Days          Written Notice
  Board             25              2                      0
  GC - Hdqtrs       76              6                      5
  Region 8          25              0                    N/A
  Region 18         25              0                    N/A
  Region 20         25              6                      0
  Region 22         25              2                      0
  Appeals           25              4                      4

       The Office of Executive Secretary stated that they usually send
written notification, but was unaware that these two requests took longer
than 20 working days to process. Legal Research did not send a written
notice for a request that was processed in 21 working days. In this
instance, Legal Research stated that they knew the information would be
available the following day and a 10 day letter would have crossed in the
mail. Region 20 was unaware of the requirement to send written
notification. Region 22 acknowledged that they should send a written
notification, but did not due to other case handling priorities.

Disposition

       FOIA requests may be granted in full, denied in full, or granted in
part. A majority of FOIA requests were granted in full in most of the
offices reviewed. Requests are denied in full or granted in part because
they are covered by one of nine FOIA exemptions or due to procedural
reasons.



                                     5
      The nine exemptions include protection of: inter-agency or intra-
agency memorandums or letters; information about individuals, the
disclosure of which would constitute a clearly unwarranted invasion of
personal privacy; records compiled for law enforcement purposes whose
release could reasonably be expected to interfere with enforcement
proceedings, could reasonably be expected to constitute an unwarranted
invasion of personal privacy, or could reasonably be expected to disclose
the identity of a confidential source.

      Procedural reasons include that the information requested does
not exist, the request was referred to another office, the requester does
not agree to pay for the request, or a withdrawal by the requester.

                        FOIA Processing Results

                                 Granted in        FOIA
                   Processed        Full        Exemption     Procedural
                                  No.    %      No.    %       No.   %
 Board                 81         48     59      2     3       31    38
 GC - Hdqtrs          762        313     41     211   28       238   31
 Region 8             141        104     74     18    13       19    13
 Region 18            116        112     96      3     3        1     1
 Region 20            104         84     81      4     4       16    15
 Region 22            117        102     87      5     4       10     9

       Of the 315 requests not granted for procedural reasons, 119 (38
percent) were referred to another office for processing. Of these 119, 99
(83 percent) were processed by Legal Research and 13 (11 percent) were
processed by the Office of Executive Secretary. The majority of cases
referred by Legal Research involved case related documents and were
referred to a field office. All of the referrals made by the Office of
Executive Secretary were to Legal Research.

       If the requesting party disagrees with the determination of an office
to not grant the FOIA request in full, the decision can be appealed to the
Office of Appeals. The Office of Appeals affirmed the deciding office's
determination in 32 of 47 (68 percent) FOIA appeals processed.

Data Accuracy

       GAO Standards for Internal Control in the Federal Government
state that control activities, including the accurate and timely recording
of transactions, are an integral part of an entity's planning,
implementing, reviewing, and accountability for stewardship of
government resources and achieving effective results.


                                     6
      FOIA logs or databases for three of the seven offices tested had
data elements with exception rates in excess of 10 percent, a rate that we
consider significant. In Region 22, 3 of 25 (12 percent) items tested had
an incorrect receipt date, 3 items had incorrect response dates, and 3
items were not supported by documentary evidence. In Region 18, 5 of
25 (20 percent) items tested had an incorrect receipt date. In Region 8,
exemption codes that were used were not recorded for 4 of 25 (16
percent) items. These Regions did not have an explanation for errors,
but stated that they would take corrective action. Generally, the FOIA
logs maintained by Region 20 and the Office of Executive Secretary and
the database maintained by Legal Research were accurate.

        In the Office of Appeals, 5 of 25 (20 percent) items had an incorrect
receipt date and exemption codes that were used were not recorded for 5
(20 percent) items. The Office of Appeals stated that a new employee was
still learning the data input process and employees were sometimes
unclear on who is responsible for entering particular data.

Working Day Calculations

       Once an agency properly receives a FOIA request, it has 20
working days to make a determination on the request. NLRB
Regulations define working days as days except Saturdays, Sundays, and
legal public holidays. A DOJ official stated that the 20 working-day
calculation starts the day after the request is received.

       Two offices did not compute working days in accordance with FOIA
guidelines. In both instances, the error made the Agency appear to
respond to requests in a less timely manner than it actually did. Region
18 did not exclude weekends and holidays from their calculations. The
Office of Executive Secretary calculated the number of working days to
process a request starting on the day it was received, unless the request
was received after 5:00 pm. Region 18 processed cases in a median of 6
working days, as opposed to the reported 9, and the Office of Executive
Secretary processed requests in 3 working days, as opposed to the 5 days
reported. Region 18 and the Office of Executive Secretary both stated
that their calculations were consistent with prior reporting periods.

Median Calculations

      The FOIA states that each year, each agency shall submit to the
Attorney General of the United States a report which shall cover the
preceding fiscal year. This report shall include the median number of
days taken by the agency to process different types of requests. DOJ
stated that reporting a median of offices' median day calculations was a
valid method of calculating the agency-wide statistic.


                                      7
       The median days figures reported in the Annual FOIA Report are a
median of the median days reported by each office, not an actual Agency-
wide median due to the many reports prepared by offices that processed
FOIA requests. The NLRB is scheduled to implement a new FOIA
tracking system to be used Agency-wide for time management purposes
and to assist Regional Offices. In addition, this new system has the
ability to calculate the actual median.

Reading Room Documents

      According to the DOJ’s FOIA Guide, four categories of records
should be made available routinely in agency reading rooms. This
includes final opinions and orders rendered in the adjudication of
administrative cases, specific agency policy statements, certain
administrative staff manuals that affect a member of the public, and any
records processed and disclosed in response to a FOIA request that the
agency determines have become or are likely to become the subject of
subsequent requests for substantially the same records.

      The NLRB maintains appropriate documents in the Agency’s
reading room. The following documents can be accessed directly from
the NLRB Home Page: NLRB Rules and Regulations; Decisions and
Orders of the NLRB; Weekly Summary of NLRB Cases; NLRB Public
Notices; NLRB Manuals; Press Releases; Miscellaneous NLRB
Publications; FOIA Manual; Annual FOIA Reports; NLRB FOIA
Regulations; and Frequently Requested Documents.


SUGGESTIONS

We suggest that the Freedom of Information Officer:

   1. Issue guidance to offices that respond to FOIA requests reminding
      them that written notification is required if a response cannot be
      made within 20 working days.

   2. Utilize reports in the new FOIA tracking system to prepare the
      Annual FOIA Report so that results are based on consistent
      criteria and an Agency-wide median.


cc: Lester A. Heltzer, Executive Secretary
    Richard Siegel, Associate General Counsel




                                    8
